HHS/OIG, Audit - "Medicare 2002 Financial Statement Activity at Noridian Mutual Insurance Company," (A-07-02-04001)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare 2002 Financial Statement Activity at Noridian Mutual Insurance
Company," (A-07-02-04001)
October 28, 2002
Complete
Text of Report is available in PDF format (667 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Medicare
fee-for-service claims were: furnished by certified Medicare providers to eligible
beneficiaries; reimbursed by Medicare contractors in accordance with Medicare
laws and regulations; and medically necessary, accurately coded, and sufficiently
documented in the beneficiaries medical records.  The period of this audit
was the quarter of January 2002 through March 2002.  Our review of 423
claims totaling $240,656 disclosed that 58 claims did not comply with Medicare
laws and regulations.  These 58 claims had 80 line item errors representing
$3,999 in improper payments.  An additional 21 line items were billed for
less services or with a lower code than was supported by the medical records.
These 21 line items would have resulted in $2,689 in additional payments if
the provider had billed the maximum supportable code or number of services supported
by the medical records.  One other line item was underpaid $72 because
it was manually priced incorrectly during the payment process.  The combination
of the overpayments and underpayments resulted in a net overpayment to providers
totaling $1,238.  When these claims were originally submitted to Noridian,
they contained no visible errors.  In addition, we found that accounting
controls over certain financial statement activities need to be improved in
order to prevent misstatement of the CMS financial statements.